                                              NATIONAL SCIENCE FOUNDATION .
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A-I0040033                                                                Page 1 of 1



     In response to an allegation of plagiarism and intellectual theft, we determined that the
     complainant had previously brought an allegation to us of fraud. Since the two matters are
     interconnected, we will carry over these issues into the previously existing case. I

     Accordingly, this case is c1osed'and no further action will be taken.




     1_ 

